Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




 ANTHEM HEALTH PLANS OF
MAINE, INC., DID NOT CLAIM
SOME ALLOWABLE MEDICARE
     PENSION COSTS
    FOR FISCAL YEARS
    2003 THROUGH 2005

 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov.




                                                  Patrick J. Cogley
                                              Regional Inspector General

                                                       June 2013
                                                     A-07-13-00405
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                               Notices


          THIS REPORT IS AVAILABLE TO THE PUBLIC
                          at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG
post its publicly available reports on the OIG Web site.

   OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as questionable, a
  recommendation for the disallowance of costs incurred or claimed, and
  any other conclusions and recommendations in this report represent the
  findings and opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

       Anthem Health Plans of Maine, Inc., did not claim $853,422 of allowable
       pension costs for Medicare reimbursement for fiscal years 2003 through 2005.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts. Previous
Office of Inspector General reviews found that Medicare contractors have not always complied
with Federal requirements when claiming pension costs for Medicare reimbursement.

The objective of this review was to determine whether the pension costs claimed by Anthem
Health Plans of Maine, Inc. (Anthem Maine), for Medicare reimbursement for fiscal years (FY)
2003 through 2005 were allowable and correctly claimed.

BACKGROUND

Anthem Maine, a subsidiary of WellPoint, Inc. (WellPoint), administered Medicare Part A and
Regional Home Health Intermediary operations under cost reimbursement contracts with CMS.

On June 5, 2000, Anthem Insurance Companies, Inc. (Anthem), acquired Associated Hospital
Service of Maine doing business as Blue Cross Blue Shield of Maine. Effective December 31,
2000, Associated Hospital Service of Maine Retirement Plan merged into the Anthem Cash
Balance Pension Plan. On November 30, 2004, Anthem merged with WellPoint Health
Networks, Inc., and changed its name to WellPoint. On January 1, 2006, the Anthem Cash
Balance Pension Plan was renamed the WellPoint Cash Balance Pension Plan. Also, effective
November 17, 2006, WellPoint consolidated its Government contracting segments into one
segment, AdminaStar Federal, Inc. (AdminaStar), which included the Anthem Maine Medicare
segment. In addition, as of that same date, AdminaStar changed its corporate name to National
Government Services, Inc. (NGS). Thus, although we are addressing this report to NGS, we will
associate the term Anthem Maine with our finding and recommendation regarding the pension
costs claimed.

WHAT WE FOUND

Anthem Maine claimed pension costs of $1,190,926 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $2,044,348. The
difference, $853,422, represented allowable Medicare pension costs that Anthem Maine did not
claim on its Final Administrative Cost Proposals (FACP) for FYs 2003 through 2005. Anthem
Maine did not claim these allowable Medicare pension costs primarily because it incorrectly
calculated the CAS pension costs for FYs 2003 through 2005.



Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                        i
WHAT WE RECOMMEND

We recommend that Anthem Maine revise its FACPs for FYs 2003 through 2005 to claim the
additional pension costs of $853,422.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NGS concurred with our finding and recommendation.
Anthem Maine’s Medicare contract was transitioned to NGS effective November 17, 2006;
therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report; we
accepted these suggestions and have incorporated them into this final report.




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                     ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 Anthem Health Plans of Maine, Inc. ....................................................................... 1
                 Medicare Reimbursement of Pension Costs ........................................................... 1

           How We Conducted This Review....................................................................................... 2

FINDING ........................................................................................................................................ 2

           Claimed Pension Costs ....................................................................................................... 2

           Allowable Pension Costs Not Claimed ............................................................................... 2

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................... 3

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................ 4

    B: Federal Requirements Related to Reimbursement
       of Pension Costs................................................................................................................... 6

    C: Allowable Medicare Pension Costs for Anthem Health Plans of
       Maine, Inc., for Fiscal Years 2003 Through 2005 ............................................................... 7

    D: Auditee Comments............................................................................................................. 10




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                                                                        iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare contracts.
Previous Office of Inspector General reviews found that Medicare contractors have not always
complied with Federal requirements when claiming pension costs for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether the pension costs claimed by Anthem Health Plans of
Maine, Inc. (Anthem Maine), for Medicare reimbursement for fiscal years (FY) 2003 through
2005 were allowable and correctly claimed.

BACKGROUND

Anthem Health Plans of Maine, Inc.

Anthem Maine, a subsidiary of WellPoint, Inc. (WellPoint), administered Medicare Part A and
Regional Home Health Intermediary operations under cost reimbursement contracts with CMS.

On June 5, 2000, Anthem Insurance Companies, Inc. (Anthem), acquired Associated Hospital
Service of Maine doing business as Blue Cross Blue Shield of Maine. Effective December 31,
2000, Associated Hospital Service of Maine Retirement Plan merged into the Anthem Cash
Balance Pension Plan. On November 30, 2004, Anthem merged with WellPoint Health
Networks, Inc., and changed its name to WellPoint. On January 1, 2006, the Anthem Cash
Balance Pension Plan was renamed the WellPoint Cash Balance Pension Plan. Also, effective
November 17, 2006, WellPoint consolidated its Government contracting segments into one
segment, AdminaStar Federal, Inc. (AdminaStar), which included the Anthem Maine Medicare
segment. In addition, as of that same date, AdminaStar changed its corporate name to National
Government Services, Inc. (NGS). Thus, although we are addressing this report to NGS, we will
associate the term Anthem Maine with our finding and recommendation regarding the pension
costs claimed.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual pension costs, which are funded
by the contributions that these contractors make to their pension plans. To be allowable for
Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                        1
Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

HOW WE CONDUCTED THIS REVIEW

We reviewed $1,190,926 of pension costs claimed by Anthem Maine for Medicare
reimbursement on its Final Administrative Cost Proposals (FACP) for FYs 2003 through 2005.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDING

Anthem Maine claimed pension costs of $1,190,926 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $2,044,348. The
difference, $853,422, represented allowable Medicare pension costs that Anthem Maine did not
claim on its FACPs for FYs 2003 through 2005. Anthem Maine did not claim these allowable
Medicare pension costs primarily because it incorrectly calculated the CAS pension costs for
FYs 2003 through 2005.

CLAIMED PENSION COSTS

Anthem Maine submitted Medicare pension costs of $1,190,926 for Medicare reimbursement on
its FACPs for FYs 2003 through 2005. We calculated the allowable Medicare pension costs
based on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment in accordance with CAS 412 and 413. For details on the Federal requirements,
see Appendix B.

ALLOWABLE PENSION COSTS NOT CLAIMED

We determined that the allowable CAS-based pension costs for FYs 2003 through 2005 were
$2,044,348. Thus, Anthem Maine did not claim $853,422 of allowable Medicare pension costs
on its FACPs for FYs 2003 through 2005. This underclaim occurred primarily because Anthem
Maine incorrectly calculated the CAS pension costs for FYs 2003 through 2005.




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                          2
The table below compares allowable CAS-based pension costs with the pension costs claimed on
Anthem Maine’s FACPs and reflected in its accounting documents. Appendix C contains
additional details on allowable pension costs.

         Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                       Medicare Pension Costs
                                     Allowable  Claimed by
                    Fiscal Year      Per Audit Anthem Maine                 Difference
                       2003            $551,584      $329,586                  $221,998
                       2004             735,538       378,799                   356,739
                       2005             757,226       482,541                   274,685
                       Total         $2,044,348    $1,190,926                  $853,422

                                        RECOMMENDATION

We recommend that Anthem Maine revise its FACPs for FYs 2003 through 2005 to claim the
additional pension costs of $853,422.

                                       AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our finding and recommendation.
Anthem Maine’s Medicare contract was transitioned to NGS effective November 17, 2006;
therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report. These
comments clarified information pertaining to entity and pension plan names as well as the
effective date of the Government contract segments’ consolidation.

NGS’s comments are included in their entirety as Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s comments, we accepted the technical comments and have incorporated
them into this final report.




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                     3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

Scope

We reviewed $1,190,926 of pension costs that Anthem Maine claimed for Medicare
reimbursement on its FACPs for FYs 2003 through 2005.

Achieving our objective did not require that we review Anthem Maine’s overall internal control
structure. We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We completed our audit work in November and December 2012.

Methodology

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

    •   reviewed information provided by WellPoint to identify the amount of pension costs
        claimed for Medicare reimbursement for FYs 2003 through 2005;

    •   used information that WellPoint’s actuarial consulting firms provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined WellPoint’s accounting records, pension plan documents, annual actuarial
        valuation reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which WellPoint funded CAS-based pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the allocable pension costs based on
        the CAS (the calculations were based on separately computed CAS-based pension costs
        for the Anthem Maine Medicare segment and the “Other” segment); and

    •   reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during this review:

    •   Anthem Health Plans of Maine, Inc., Overstated Its Medicare Segment Pension Assets as
        of January 1, 2006 (A-07-13-00404),




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                         4
    •   Anthem Health Plans of New Hampshire, Inc., Understated Its Medicare Segment
        Pension Assets as of January 1, 2006 (A-07-13-00406),

    •   Anthem Health Plans of New Hampshire, Inc., Did Not Claim Some Allowable Medicare
        Pension Costs for Fiscal Years 2003 Through 2005 (A-07-13-00407),

    •   National Government Services, Inc., Understated Its Medicare Segment Pension Assets
        as of January 1, 2010 (A-07-13-00408), and

    •   National Government Services, Inc., Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2006 (A-07-13-00409).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                      5
   APPENDIX B: FEDERAL REQUIREMENTS RELATED TO REIMBURSEMENT
                         OF PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that
contractors fund the pension costs assigned to contract periods by making contributions to the
pension plan.

Federal regulations (CAS 412) address the determination and measurement of pension cost
components. This regulation also addresses the assignment of pension costs to appropriate
accounting periods.

Federal regulations (CAS 413) address the valuation of pension assets, allocation of pension
costs to segments of an organization, adjustment of pension costs for actuarial gains and losses,
and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                           6
                                           APPENDIX C: ALLOWABLE MEDICARE PENSION COSTS FOR
                                   ANTHEM HEALTH PLANS OF MAINE, INC., FOR FISCAL YEARS 2003 THROUGH 2005


                                                                                                       Anthem                     Anthem
                                                                      Total          “Other”        New Hampshire       NGS        Maine      Total
           Date                     Description                      Company         Segment           Segment        Segment     Segment    Medicare

           2002           Allocable Pension Costs              1/                    $25,211,534               $0    $2,891,085        $0

           2003           Contributions                        2/ $65,000,000        $65,000,000                $0           $0         $0
                          Discount for Interest                3/ ($3,534,074)       ($3,534,074)               $0           $0         $0
     January 1, 2003      Present Value Contributions          4/ $61,465,926        $61,465,926                $0           $0         $0
                          Prepayment Credit Applied            5/ $53,095,812        $48,531,571          $243,725   $3,704,635   $615,881
                          Present Value of Funding             6/ $114,561,738      $109,997,497          $243,725   $3,704,635   $615,881

     January 1, 2003      CAS Funding Target                   7/    $53,095,812     $48,531,571          $243,725   $3,704,635   $615,881
                          Percentage Funded                    8/                        100.00%           100.00%      100.00%    100.00%
                          Funded Pension Cost                  9/                    $48,531,571          $243,725   $3,704,635   $615,881
                          Allowable Interest                  10/                             $0                $0           $0         $0
                          Allocable Pension Cost                                     $48,531,571          $243,725   $3,704,635   $615,881
           2003           FY Allocable Pension Costs          11/                    $42,701,562                     $3,501,248   $461,911
                          Medicare LOB* Percentage            12/                          0.21%        N/A              N/A       100.00%

                          Allowable Pension Cost              13/                        $89,673        N/A             N/A       $461,911   $551,584




                                                                                                       Anthem                     Anthem
                                                                      Total          “Other”        New Hampshire       NGS        Maine      Total
           Date                     Description                      Company         Segment           Segment        Segment     Segment    Medicare


           2004           Contributions                              $10,000,000     $10,000,000                $0           $0         $0
                          Discount for Interest                        ($555,556)      ($555,556)               $0           $0         $0
     January 1, 2004      Present Value Contributions                 $9,444,444      $9,444,444                $0           $0         $0
                          Prepayment Credit Applied                  $51,790,851     $47,324,552          $236,302   $3,600,628   $629,369
                          Present Value of Funding                   $61,235,295     $56,768,996          $236,302   $3,600,628   $629,369

     January 1, 2004      CAS Funding Target                         $51,790,851     $47,324,552         $236,302    $3,600,628   $629,369
                          Percentage Funded                                              100.00%          100.00%       100.00%    100.00%
                          Funded Pension Cost                                        $47,324,552         $236,302    $3,600,628   $629,369
                          Allowable Interest                                                  $0               $0            $0         $0
                          Allocable Pension Cost                                     $47,324,552         $236,302    $3,600,628   $629,369
           2004           FY Allocable Pension Costs                                 $47,626,307         $238,158    $3,626,630   $625,997
                          Medicare LOB* Percentage                                         0.23%        N/A              N/A       100.00%

                          Allowable Pension Cost                                       $109,541         N/A             N/A       $625,997   $735,538




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                                                                               7
                                                                                                       Anthem                               Anthem
                                                                      Total         “Other”         New Hampshire             NGS            Maine           Total
           Date                     Description                      Company        Segment            Segment              Segment         Segment         Medicare

           2005           Contributions                              $46,500,000    $46,500,000                    $0              $0              $0
                          Discount for Interest                      ($2,583,333)   ($2,583,333)                   $0              $0              $0
     January 1, 2005      Present Value Contributions                $43,916,667    $43,916,667                    $0              $0              $0
                          Prepayment Credit Applied                  $49,875,639    $45,721,239              $206,990      $3,276,707        $670,703
                          Present Value of Funding                   $93,792,306    $89,637,906              $206,990      $3,276,707        $670,703

     January 1, 2005      CAS Funding Target                         $49,875,639    $45,721,239             $206,990       $3,276,707        $670,703
                          Percentage Funded                                             100.00%              100.00%          100.00%         100.00%
                          Funded Pension Cost                                       $45,721,239             $206,990       $3,276,707        $670,703
                          Allowable Interest                                                 $0                   $0               $0              $0
                          Allocable Pension Cost                                    $45,721,239             $206,990       $3,276,707        $670,703
           2005           FY Allocable Pension Costs                                $46,122,067             $214,318       $3,357,687        $660,370
                          Medicare LOB* Percentage                                        0.21%            N/A                 N/A            100.00%

                          Allowable Pension Cost                                       $96,856             N/A                 N/A           $660,370        $757,226

    * Line of business.

ENDNOTES

 1/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the 2002 calendar year (CY)
    allocable pension cost from our prior Anthem Maine review (A-07-05-00194), issued October 18, 2005.

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The contributions included deposits
    made during the CY and accrued contributions deposited after the end of the CY but within the time allowed for filing tax returns. We determined the
    contributions allocated to the Medicare segment during the pension segmentation review (A-07-13-00404). The amounts shown for the “Other” segment
    represent the difference between the Total Company and the Medicare segment.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back to their
    beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference between the present value of contributions (at the
    valuation interest rate) and actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the CY. For purposes of this
    Appendix, we deemed deposits made after the end of the CY to have been made on the final day of the CY, consistent with the method mandated by the
    Employee Retirement Income Security Act used prior to the implementation of the Pension Protection Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when contributions, plus
    interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to cover the
    CAS funding target measured at the first day of the CY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any funding in excess of the CAS
    funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We
    computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the percentage of funding has
    been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions
    bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable
    interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments deposited within
    30 days after the end of the quarter.

11/ We converted the allocable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of the prior year’s costs
    plus 3/4 of the current year’s costs.


Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                                                                                               8
12/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB) percentage of each segment. We
    determined the Medicare LOB percentages based upon information provided by Anthem Maine.

13/ We computed the allowable Medicare pension cost as an FY pension cost multiplied by the Medicare LOB percentage. In accordance with CAS 412 and 413,
    the total Medicare allowable pension costs charged to the Medicare contract consisted of the Anthem Maine Medicare segment’s direct pension costs plus
    “Other” segment pension costs attributable to indirect Anthem Maine Medicare operations.




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                                                                                    9
                                      APPENDIX D: AUDITEE COMMENTS




           ~National c~vernment
           }II{"        serv1ces.
                                                                                                    MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             www.wellpoint.com/ngs



             April 29, 2013

             Mr. PatrickJ. Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             601 East 12<h Street, Room 0429
             Kansas City, Missouri 64106

             Reference: Report Number A-07-13-00405

             Dear Mr. Cogley:

             We have received the d raft audit report from the Inspector General entitled "Anthem Health
             Plans of Maine, Inc. Did Not Claim Some Allowable Medicare Pension Costs for Fiscal Years
             2003 through 2005" and thank you for the opportunity to respond.


             National Government Services, Inc. (N GS) concurs with the finding and recommendation
             outlined in the report and will work with the Centers for Medicare & Medicaid Services to seek
             reimbursement for the additional allowable pension cost identified in the report.

             In our review of the report, the following proposed revisions would enhance the accuracy and
             clarity of the report:

                          •   In the "Executive Summar y" section (page i) within the "Background" caption
                              and in the "Introduction" section (page 1) within the "Background" caption,
                              please replace the second paragraph with the following which accurately
                              describes the organization:

                              On June 5, 2000, Anthem Insurance Companies, Inc. (Anthem) acquired
                              Associated Hospital Service of Maine d/b/a Blue Cross Blue Shield of
                              Maine. Effective December 31, 2000, Associated Hospital Service of Maine
                              Retirement Plan merged into the Anthem Cash Balance Pension Plan. On
                              November 30, 2004, Anthem merged with WellPoint Health Networks, Inc. and
                              changed its name to WellPoint, Inc. On January 1, 2006, the Anthem Cash
                              Balance Pension Plan was renamed the WellPoint Cash Balance Pension
                              Plan. Also effective November 17, 2006, WellPoint consolidated its Government
                              contracting segments into one segment, AdminaStar Federal, Inc. (AdminaStar),
                              which included the Anthem Maine Medicare seg ment. In addition as of that




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                                      10
           ....LNational G~vernme--.:it
            )II{"     serv1ces.
                                                                                                       MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             W>NVV.wellpoint.com/ngs



             April 29, 2013
             Page 2

                              same date AdminaStar changed its corporate name to N ational Government
                              Services, Inc. (NGS). Thus, although we are addressing this report to NGS, we
                              will associate the term Anthem Maine with our finding and recommendation
                              regarding the pension costs claimed.

             We appreciate the opportunity to respond to this draft report. If you have any further
             questions, I can be reached at 414-459-5606 or via email at todd.reiger @wellpoint.com.

             Sincerely,
                                        Digitally signed by
                                        todd.reiger@wellpoint.com
                                        DN: cn=todd.reiger@wellpoint.com
                                        Date: 2013.04.29 12:01:28 -04'00'

             Todd W. Reiger, CPA
             Medicare Chief Financial Officer
             National Government Services, Inc.

             CC:              Michael Kapp - NGS
                              Dave Marshall- NGS
                              Jeff Hannah - NGS
                              Jim Maguire - NGS
                              Matt H ughes - NGS
                              Jim Elmore - NGS
                              Joanne Imel- WellPoint
                              Marilyn Bryan- CMS
                              Jenenne Tambke- OIG




Anthem Health Plans of Maine, Inc., Pension Costs Claimed (A-07-13-00405)                                         11
